2a

PRESENT: DENNY CHIN,
RICHARD J. SULLIVAN,
WILLIAM J. NARDINI,
Circuit Judges.
x

STEVEN E. GREER, M.D.,
Plain tiff- Co un ter -Defen dant-Appellan t,
v
DENNIS MEHIEL, an individual, ROBERT
SERPICO, an individual, BATTERY PARK CITY
AUTHORITY, a New York State authority,
Defendan ts Appellees,
HOWARD P. MILSTEIN, an individual, STEVEN
ROSSI, an individual, JANET MARTIN, an
individual, MILFORD MANAGEMENT, a New
York corporation, MARINERS COVE SITE B
ASSOCIATES, a New York corporation,
Defen dants- Co un ter - Claim an ts.
x

3a

FOR PLAINTIFF-COUNTER- DEFENDANTAPPELLANT:
STEVEN ERIC GREER, M.D., pro se,
Port Saint Lucie, Florida.
FOR DEFENDANTS-APPELLEES:
NOAM BIALE
(Michael Tremonte and Michael W. Gibaldi, on the
brief),
Sher Tremonte LLP, New York, New York.

Appeal from a judgment of the United States
District Court for the Southern District of New York
(Nathan, J., Cott, M.J).
UPON DUE CONSIDERATION, IT IS
HEREBY ORDERED, ADJUDGED, AND DECREED
that the judgment of the district court is AFFIRMED.
Plaintiff-counter-defendant-appellant Steven
E. Greer, proceeding pro se, appeals the district court's
orders granting in part defendants' motions to dismiss,
granting summary judgment in favor of defendants,
and denying his motion for relief from judgment
pursuant to Federal Rule of Civil Procedure 60(b).
Greer sued the Battery Park City Authority (the
"BPCA"), two BPCA officials (the "BPCA Defendants"),
and several private individuals and corporations (the
"Landlord Defendants"), claiming, inter alia, that they
conspired to deprive him of his First Amendment
rights. Specifically, Greer alleged that the Landlord
Defendants and BPCA Defendants conspired, because
of posts he made about the BPCA on his website, to (l)
not renew his lease and evict him from his apartment

4a

and (2) ban him from public BPCA meetings. The
district court granted in part the motions to dismiss,
allowing Greer's First Amendment retaliation claim
and First Amendment equal access claim to move
forward but, as relevant here, dismissing his equal
access claim as to defendant Robert Serpico and the
retaliation and equal access claims as to defendant
Dennis Mehiel. The district court later granted
summary judgment to defendants and denied Greer's
Rule 60(b) motion. After summary judgment, Greer
and the Landlord Defendants entered into a
stipulation of settlement; thus, this appeal concerns
only the claims against the BPCA and BPCA
Defendants. We assume the parties' familiarity with
the underlying facts, the procedural history of the
case, and the issues on appeal.
I.

Dismissal

We review de novo the dismissal of a complaint
for failure to state a claim. Chambers v. Time Warner,
Inc., 282 F.3d 147, 152 (2d Cir. 2002). A complaint
must plead "enough facts to state a claim to relief that
is plausible on its face," Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007), and "allowG the court to
draw the reasonable inference that the defendant is
liable for the misconduct alleged," Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). The district court must
construe the complaint liberally, "accepting all factual
allegations in the complaint as true, and drawing all
reasonable inferences in the plaintiffs favor."
Chambers, 282 F.3d at 152.
The district court properly dismissed the
retaliation claim against Mehiel and the equal access
claim against both Serpico and Mehiel. "It is well
settled that ... to establish a defendant's individual

5a
liability in a suit brought under § 1983, a plaintiff
must show, inter alia, the defendant's personal
involvement
the
m
alleged
constitutional
deprivation." Grullon v. City ofNew Haven, 720 F.3d
133, 138 (2d Cir. 2013). Greer's second amended
complaint did not allege any involvement by Serpico
in the BPCA's decision to ban Greer from meetings
and did not allege any involvement by Mehiel in either
the decision not to renew his lease or the decision to
ban him from the meetings. The complaint alleged
that " [defendants" made those decisions without
specifying which of the eight different defendants
were involved. Appellant's Br. at 20. Such a vague
reference did not sufficiently put the defendants on
notice about the specific claims against each of them.
On appeal, Greer also argues that dismissal
was improper because Mehiel later admitted during
discovery that he had personally made the decision to
ban Greer from the meetings. That later admission,
however, does not affect the district court's decision on
a motion to dismiss, which was properly based solely
on the allegations in the complaint. To the extent
Greer argues that the district court should have
allowed Greer to amend the complaint based on that
admission -- after the close of discovery and during
briefing for summary judgment -- the district court did
not abuse its discretion in finding that such a request
for amendment was untimely. See Grochowski

6a

v. Phoenix Constr., 318 F.3d 80, 86 (2d Cir. 2003)
(denial of leave to amend is generally reviewed for
abuse of discretion). "While generally leave to amend
should be freely granted, it may be denied when there
is a good reason to do so, such as futility, bad faith, or
undue delay." Kropelnicki v. Siegel, 290 F.3d 118, 130
(2d Cir. 2002) (citation omitted). As the BPCA
Defendants argue, they would have been prejudiced
by such a late amendment because they had
proceeded through discovery on the understanding
that the equal access claim was against only the
BPCA (and not Mehiel individually). See McCarthy v.
Bun & Bradstreet Corp., 482 F.3d 184, 202 (2d Cir.
2007) (holding that the district court did not abuse its
discretion in denying leave to amend where
"discovery had closed, defendants had filed for
summary judgment, and nearly two years had passed
since the filing of the original complaint").
II.

Summary Judgment

We review a grant of summary judgment de
novo, "resolv[ing] all ambiguities and draw[ing] all
inferences against the moving party." Garcia v.
Hartford Police Dep't, 706 F.3d 120, 126-27 (2d Cir.
2013). "Summary judgment is proper only when,
construing the evidence in the light most favorable to
the non-movant, 'there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.'" Doninger v. Niehoff, 642 F.3d 334,
344 (2d Cir. 2011) (quoting Fed. R. Civ. P. 56(a)).

7a
A.

Retaliation

"To state a First Amendment retaliation claim,
a plaintiff must show that: (i) he has a right protected
by the First Amendment; (2) the defendant's actions
were motivated or substantially caused by the
plaintiffs exercise of that right; and (3) the defendant's
actions caused the plaintiff some injury." Ragbir v.
Homan, 923 F.3d 53, 66 (2d Cir. 2019) (internal
quotation marks, brackets and citation omitted). Even
where such a showing is made, however, "a defendant
may be entitled to summary judgment if he can show
dual motivation, i.e., that even without the improper
motivation the alleged retaliatory action would have
occurred." Scott v. Coughlin, 344 F.3d 282, 287-88 (2d
Cir. 2003) (citing Mt. Healthy City Sch. Dist. Bd. of
Educ. v. Doyle, 429 U.S. 274, 287 (1977)). To succeed
on this defense, the defendant bears the burden of
showing that "it would have taken exactly the same
action absent the improper motive." Id. at 288.
The district court did not err in granting
summary judgment for defendants on Greer's First
Amendment retaliation claim. The sole evidence in the
record purportedly showing that an improper motive
played any part in the decision not to renew Greer's
lease came from the deposition testimony of two BPCA
employees -- one who stated he believed that Serpico
pressured Steven Rossi, a Landlord Defendant, to not
renew Greer's lease after seeing Serpico "smirkD"
when directly asked if he had "anything to do with" the
non-renewal, Dist. Ct. Dkt. No. 440-9 at 7, and another
who stated that Serpico was angered by Greer's
website and regularly discussed that website at the
BPCA office. Of course, even assuming Serpico
"smirked" and regularly discussed Greer's website,
that is hardly concrete evidence that Serpico and
others sought to punish Greer for exercising his First

8a

Amendment rights, or that Serpico had the
wherewithal to influence the Landlord Defendants
into not renewing Greer's lease.
In contrast to this speculative testimony, the
evidence that defendants would have "taken exactly
the same action absent [an] improper motive,"
Coughlin, 344 F.3d at 288 -- i.e., declined to renew
Greer's lease regardless of his blog posts -- was
overwhelming. The undisputed evidence showed that
Greer was routinely 30 or even 60 days late with his
rent payments. Greer's own emails and copies of rent
checks showed he was late with his rent payments in
at least eight months throughout 2012 and 2013.
Although Greer adamantly disputed the evidence that
showed his arrears, he did not present any evidence
contradicting that evidence! instead, the emails he
submitted (showing disputes about amounts owed)
supported defendants' contention that he was
frequently late in making payments. These emails also
showed Greer repeatedly making excuses for his late
payments, including that he "mistakenly" wrote a
check from a recently closed account. Dist. Ct. Dkt. No.
381 Ex. 17. Indeed, defendants' evidence showed that
by the time the eviction lawsuit against Greer
commenced, he was $10,887 in arrears. Defendants
further submitted competent evidence, in the form of
Legal Action Status Reports, showing that they had
taken "legal action" against tenants who were behind
in rent payments. Although Greer challenged that
evidence, he did so only in a conclusory manner, and,
despite the opportunity to conduct discovery, he did
not identify any other tenant who was similarly in
frequent arrears who was not subjected to legal action.
On this record, no reasonable juror could
conclude that a "smirk" and office chit chat
transformed what would otherwise have been routine

9a

landlord conduct -- declining to renew the lease of a
tenant who repeatedly failed to make timely rent
payments -- into First Amendment retaliation. See
Harlen Assocs. v. Inc. Vill. of Mineola, 273 F.3d 494,
499 (2d Cir. 2001) ("Although all inferences must be
drawn in favor of the nonmoving party, mere
speculation and conjecture is insufficient to preclude
the granting of (a summary judgment] motion.").1
Accordingly, the dismissal of Greer's First
Amendment retaliation claim is affirmed.
B.

Equal Access

The district court properly held that Greer's
equal access claim against the BPCA failed as a matter
of law. The BPCA is a "public benefit corporation"
created by New York state law. See In re World Trade
Ctr. Lower Manhattan Disaster Site Litig., 892 F.3d
108, 109-10 (2d Cir. 2018). It therefore can be held
liable under § 1983 only if the alleged constitutional
deprivation is the result of a "policy or custom."
Patterson v. County of Oneida, 375 F.3d 206, 226 (2d
Cir. 2004) (citing Monell v. Dep't of Soc. Servs., 436
U.S. 658, 692-94 (1978)); see also Dangler v. NYC.
Off Track Betting Corp., 193 F.3d 130, 142-43 (2d Cir.
1999) (applying Monell to claims against another
public benefit corporation). To hold a governmental
entity liable for a decision by a government official,
the plaintiff must show that the official has "final
policymaking authority" with respect to "the ‘
1 Notably, in a related state court litigation concerning Greer's
eviction, a state court ruled that Greer's apartment was
unregulated and that, accordingly, the Landlord Defendants
were under no obligation to renew Greer's lease. See, e.g., Dime
Sav. Bank of N.Y., FSB v. Montague St. Realty Assocs., 686
N.E.2d 1340, 1342 (N.Y. 1997).

10a

particular conduct challenged in the lawsuit." Roe v.
City of Waterbury, 542 F.3d 31, 37 (2d Cir. 2008).
"Whether an official has final policymaking authority
is a legal question, determined on the basis of state
law." Id.
As the district court correctly determined, Greer
failed to demonstrate a genuine issue of material fact
as to whether Mehiel -- who made the decision to ban
Greer from public BPCA meetings
had final
policymaking authority with respect to that ban.
Although Greer correctly points to N.Y. Pub. Auth.
Law § 1973(7)
which provides that final
policymaking authority may be delegated to an
individual BPCA board member or officer -- Greer
failed to present evidence that the BPCA in fact
delegated such authority to Mehiel. Instead, the BPCA
Defendants presented evidence that such final
authority had not been delegated to Mehiel, as Mehiel
affirmed that the BPCA board could have reviewed his
decision (but chose not to). See City of St. Louis v.
Praprotnik, 485 U.S. 112,127 (1988) (plurality opinion)
("[W]hen a subordinate's decision is subject to review
by the municipality's authorized policymakers, they
have retained the authority to measure the official's
conduct for conformance with their policies."
(emphasis omitted)). Further, Greer's argument that
Mehiel, as CEO, must have had final policymaking
authority is unpersuasive; although CEOs may have
such authority in typical private corporations, Greer
provided no evidence that the CEO of the BPCA -a
public benefit corporation -- had such authority. We
therefore affirm the grant of summary judgment to
the BPCA on this claim.
III.

Rule 60 Motion

11a

We review the denial of Rule 60(b) motions for
abuse of discretion. Gomez v. City of New York, 805
F.3d 419, 423 (2d Cir. 2015). "A district court is said
to abuse its discretion if it bases its ruling on an
erroneous view of the law or on a clearly erroneous
assessment of the evidence. . . ." Id. (internal
quotation marks omitted). Rule 60(b) is "a
mechanism for 'extraordinary judicial relief invoked
only if the moving party demonstrates 'exceptional
circumstances.'" Ruotolo v. City of New York, 514
F.3d 184, 191 (2d Cir. 2008) (quoting Paddington
Partners v. Bouchard, 34 F.3d 1132, 1142 (2d Cir.
1994)). Here, the district court did not abuse its
discretion in finding that Greer failed to demonstrate
"exceptional circumstances" warranting relief. Id.
IV Discovery
We review discovery rulings for abuse of
discretion. DG Creditor Corp. v. Dabah, 151 F.3d 75,
79 (2d Cir. 1998). We likewise conclude that the
magistrate judge and the district court did not abuse
their discretion in their discovery rulings.
We have considered Greer's remaining
arguments and conclude they are without merit. For
the foregoing reasons, we AFFIRM the judgment of
the district court.
FOR THE COURT: Catherine O’Hagan Wolfe, Clerk of
Courts

12a

Appendix-B: Summary Judgment Opinion
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
Steven E. Greer,

15-cv-6119 (AJN)

Plaintiff,
—v—
Dennis Mehiel, et al,
Defendants.

MEMORANDUM
OPINION & ORDER

ALISON J. NATHAN, District Judge:
Pro se Plaintiff Steven E. Greer brings this suit
against the company that owns his former apartment,
the company that manages that apartment building,
the Battery Park City Authority ("BPCA"), and
several individuals associated with those entities. At
this stage, two claims remain in Plaintiffs suit-a First
Amendment retaliation claim and a First Amendment
equal access claim. Before the Court are three motions
for summary judgment: one from Plaintiff, one from a
group of Defendants defined below as the Landlord
Defendants, and one from a group of Defendants
defined below as the BPCA Defendants. Also before
the Court are requests by Plaintiff for sanctions and

13a

to "reinstate" two previously dismissed defendants, as
well as several sealing requests from all parties. For
the reasons set forth below, Plaintiffs motion for
summary judgment is denied, and Defendants'
motions for summary judgment are granted.
Plaintiffs other requests are also denied. The sealing
requests are granted in part and denied in part.
I. BACKGROUND
Plaintiff rented Apartment 35F in the building
located at 200 Rector Place from 2002 through April
2014. Dkt. No. 381 (Rossi Decl.) THf 1, 5! Dkt. No. 373,
Ex. 16 (Non-Renewal Notice); Dkt. No. 382 (L 56.1) THf
7-9.
At all relevant times, Milford Management
("Milford") managed the property located at 200
Rector Place. L 56.1 2; Rossi Decl.
1-2. Stephen
Rossi is the Vice President and Director of
Management Services for Milford. Rossi Decl. Tf 1.
Mariners Cove Site B Associates ("Mariners Cove"),
where Howard Milstein is a partner, owns certain
units in the building located at 200 Rector Place. Rossi
Decl.
1-2. Janet Martin is involved in the
management of properties that Milstein has an
interest in. Rossi Decl. t 2. Milstein, Rossi, Martin,
Milford, and Mariners Cove comprise the "Landlord
Defendants."
The BPCA owns the land on which 200 Rector
Place is located. .Fee Rossi Decl. ^ 54, 59-60; Dkt. No.
376 (Hyman Decl.) ^ 5. The BPCA is a New York State
public benefit corporation. See N.Y. Pub. Auth. Law§
1973(l). The membership of the BPCA consists of
seven members, a majority of which constitutes "a
quorum for the transaction of any business or the
exercise of any power or function of the authority."
N.Y. Pub. Auth. Law§ 1973(l), (7). The members elect

14a

one of themselves as chairman, and the BPCA may
delegate to one or more members, officers, agents, or
employees "such powers and duties as it may deem
proper." N.Y. Pub. Auth. Law § 1973(2), (7). The BPCA
has the power to "acquire, lease, hold, mortgage and
dispose of real property." N.Y. Pub. Auth. Law§
1974(3). Beginning June 20, 2012, Dennis Mehiel was
the Chairman and CEO of the BPCA. Dkt. No. 375
(Mehiel Decl.) ^ 1. At all times relevant to this
litigation, Robert Serpico served as the Chief
Financial Officer of the BPCA. Dkt. No. 374 (Serpico
Decl.) Tf 1. The Court refers to Serpico and the BPCA,
together, as the "BPCA Defendants."
In 2009, Plaintiff created a blog called
BatteryPark.TV, where he published articles about
the BPCA's activities. Dkt. No. 377 (BPCA 56.1) t 9!
Dkt. No. 394 (PI. Counter to BPCA 56.1) f 9.
According to one BPCA employee, Plaintiffs reporting
angered Serpico, who told the BPCA staff that the blog
was not credible and discouraged the staff from
reading it. Dkt. No. 395, Ex.16 (Ford Depo.) at 10D511Y.
Serpico and Rossi sometimes met for lunch or
coffee, including one such meeting during the fall of
2013. See Serpico Decl.^j 3; Rossi Decl. *[HI 61-63! Dkt.
No. 395, Ex. 20 (Swanson Depo.) at 21 ^8-22-4.
In a letter dated January 24, 2014, Milford
informed Plaintiff that his lease would not be renewed
and instructed him to vacate his apartment by April
30, 2014. Non-Renewal Notice. Plaintiff insists that
there is no proof that he failed to pay rent, see, e.g.,
Dkt. No. 368 (PL 56. 1) ^ 28, but there is evidence in
the record that Plaintiff often submitted late
payments or owed money on his apartment. See Greer
Ex. T (Greer Checks)! Dkt. No. 373, Ex. 25
(Spreadsheet); Dkt. No. 381, Ex. 6 (7/2/12 Email from

15a

Greer); Dkt. No. 381, Ex. 7 (7/30/12 Email RossiGreer); Dkt. No. 381, Ex. 9 (9/27/12 Greer-Hill
Emails); Dkt. No. 381, Ex. 10 (12/6/12 Email from
Greer); Dkt. No. 381, Ex. 11 (3/20/13 Greer-Hill
Emails); Dkt. No. 381, Ex. 12 (4/25/13 Email from
Greer); Dkt. No. 381, Ex. 15 (5/16/13 Email from
Greer); Dkt. No. 381, Ex. 16 (8/7/13
Email from Greer); Dkt. No. 381, Ex. 17; Dkt. No. 381,
Ex. 20 (7/3/12 Greer-Rossi Emails). Though disputed,
there is also some evidence that the Landlord
Defendants took legal action against other tenants
when they owed two months' rent or more. See L 56.1
lit 55, 58, 60; Dkt. No. 381, Exs. 34-43.
When one BPCA employee asked Serpico "if
[Serpico] had anything to do with Greer not getting
his lease renewed," Serpico, according to the
employee, visibly smirked, shrugged," and did not
answer the question. Swanson Depo. at 19:9-21, 24^720.

Despite the non-renewal notice, Plaintiff did
not vacate his apartment by April 30, 2014. See BPCA
56.1 113; PI. Counter to BPCA 56.1 113. Accordingly,
Mariners Cove began an eviction proceeding against
Plaintiff. See PI. 56.1 1 46. In response to an email
from Plaintiff warning Defendants not to delete any
emails, Serpico emailed Rossi on May 28, 2014, and
asked, "Is [Plaintiff] now evicted? Where is he living?"
Dkt. No. 374, Ex. 1 (5/28/14 Serpico Email).
Plaintiff was ultimately evicted from his
apartment in the spring of 2016. Dkt. No. 184, Ex. D
(Housing Court Decision).
Defendants contend that Plaintiff regularly
harassed and bothered BPCA employees and Battery
Park City residents. See, e.g., BPCA 56.1 1 14.
Plaintiff denies those accusations and emphasizes
that any alleged misconduct occurred after Plaintiffs

16a

lease was not renewed. PL Counter to BPCA 56.1 H 14.
However, there is evidence that the BPCA Defendants
were aware of at least one incident in which Plaintiff
acted antagonistically before January 2014. See Dkt.
No. 3 73, Ex. 11 (March 11, 2013 Email) (detailing an
incident in which a woman called the police because
Plaintiff was yelling at her and trying to videotape
her).
Plaintiff attended the BPCA board meeting
held on June 9, 2015. BPCA 56.1 HH 40-42; PI. Counter
to BPCA 56.1 H 41. At the end of the meeting, the
BPCA board transitioned to an executive session,
which was closed to the public. See BPCA 56.1 H 43;
PI. Counter to BPCA 56.1 HH 41-42. However, Plaintiff
refused to leave the meeting room. BPCA 56.1 H 44; PI.
Counter to BPCA 56.1 H 43. Kevin McCabe, Mehiel's
Chief of Staff, asked Plaintiff to leave the room and
advised Plaintiff that if he did not leave the police
would be called. BPCA 56.1 HH 44-48; PI. Counter to
BPCA 56.11j47. Plaintiff then left the room. PI.
Counter to BPCA 56.1H 48.
After the June 9, 2015, board meeting, Mehiel
decided to exclude Plaintiff from the BPCA offices,
including future BPCA board meetings, to ensure
safety and minimize disruptions. Mehiel Decl.HH 1315; see also Dkt. No. 373, Ex. 3 (McCabe Depo.) at
32:24-33-3 (McCabe stating that Mehiel directed
security to ban Plaintiff from BPCA offices because of
Plaintiffs "abusive and disruptive behavior"); Dkt. No.
376, Ex. 13 (6/9/15 Email from Mehiel) (instructing
security to exclude Plaintiff from the BPCA office
because of his "[c]onsistent hostile behavior").
According to Mehiel, the BPCA could have reviewed
that decision but chose not to. Mehiel Decl. if 16.
Instead of attending the July 29, 2015 BPCA board
meeting, Plaintiff was allowed to watch a live video

17a
feed of the meeting in a building several blocks away
from the BPCA main offices. See Mehiel Decl. if 14!
BPCA 56.1 if 56! PI. Counter to BPCA 56.1 if 50.
On August 4, 2015, Plaintiff filed a complaint
in this action. Dkt. No. 1. He filed a Second Amended
Complaint on November 4, 2015. Dkt. No. 85 (SAC).
Plaintiff alleged, inter alia, that Defendants violated
his First Amendment rights. Specifically, he claimed
that the nonrenewal of his lease, which led to his
ultimate eviction, was the result of a conspiracy by the
Landlord Defendants and the BPCA, Mehiel, and
Serpico to retaliate against Plaintiff for his blog. See
SAC 42-43, 64. In addition, Plaintiff claimed that the
BPCA, Mehiel, and Serpico unlawfully excluded him
from the July 2015 board meeting. *9eeSAC Tff 68-73.
Plaintiff initially sought an order enjoining
Defendants from evicting him. 5eeSAC if 36; Dkt. No.
2. On February 24, 2016, the court denied Plaintiffs
motion for a preliminary injunction enjoining the
then-ongoing eviction proceedings in state court. Dkt.
No. 138.
Defendants filed motions to dismiss, Dkt. Nos.
102, 114, which the Court granted in part and denied
in part on September 30, 2016,2 see Dkt. No. 177.
Relevant here, the Court granted a motion to dismiss
the retaliation claim against Mehiel but denied the
motion to dismiss that claim against the Landlord
Defendants, the BPCA, and Serpico. iSteeDkt. No. 177
9

The Court granted the motion to dismiss Plaintiffs First
Amendment claim alleging harassment by security officers, Dkt.
No. 177 at 6, his claim for a suhstantive violation of the Fair
Housing Act, Dkt. No. 177 at 15-19, his claim for retaliation
under the Fair Housing Act, Dkt. No. 177 at 19-21, and his
defamation claim, Dkt. No. 177 at 21-23. The Court later denied
Plaintiffs motion to dismiss the Landlord Defendants'
counterclaim for attorney's fees, fee Dkt. No. 425.

18a

at 6. The Court also granted a motion to dismiss the
second claim-unlawful exclusion from the board
meeting-against Mehiel and Serpico but allowed the
claim to continue against the BPCA. She Dkt. No. 177
at 6. Accordingly, at this point, Plaintiff has two
remaining claims^ (l) a First Amendment retaliation
claim against Defendants BPCA and Robert Serpico
(the "BPCA Defendants") and Defendants Mariners
Cove Site B Associates, Howard Milstein, Steve Rossi,
Janet Martin, and Milford Management (the
"Landlord Defendants"), and (2) a First Amendment
equal access claim against the BPCA.
The Landlord Defendants and the BPCA
Defendants each move for summary judgment. Dkt.
Nos. 371, 379. Plaintiff also moves for summary
judgment. Dkt. No. 366.
II. MOTIONS FOR SUMMARY JUDGMENT
A. Legal Standard
A party is entitled to summary judgment only if there
is no genuine dispute of material fact and the movant
is entitled to judgment as a matter of law. Ramos v.
Baldor Specialty Foods, Inc., 687 F.3d 554, 558 (2d
Cir. 2012). In reviewing the evidence on a motion for
summary judgment, courts construe the evidence in
the light most favorable to the nonmoving party and
draw all reasonable inferences in that party's favor.
Id. "A fact is material if it might affect the outcome of
the suit under the governing law, and an issue of fact
is genuine if the evidence is such that a reasonable
jury could return a verdict for the nonmoving party."
Id. (quoting Niagara Mohawk Power Corp. v. Hudson
River-Black River Regulating Dist., 673 F.3d 84, 94
(2d Cir. 2012)).
B. First Amendment Retaliation Claim

19a

Plaintiff contends that he is entitled to summary
judgment because he has established Defendants'
liability on his First Amendment retaliation claim.
Dkt. No. 367 (PI. Memo) at 12-19. Each set of
Defendants has cross-moved for summary judgment
on the claim.
Because the Landlord Defendants are private
actors, to succeed on his § 1983 claim
against them Plaintiff must demonstrate that they
conspired with the BPCA Defendants, who are state
actors, to retaliate against Plaintiff. See Pangburn v.
Culbertson, 200 F.3d 65, 72 (2d Cir. 1999) ("To prove
a § 1983 conspiracy, a plaintiff must show: (l) an
agreement between ... a state actor and a private
entity! (2) to act in concert to inflict an
unconstitutional injury; and (3) an overt act done in
furtherance of that goal causing damages."). The
BPCA Defendants and the Landlord Defendants
contend there is no evidence of a conspiracy between
them; Plaintiff argues that the evidence clearly
establishes that a conspiracy existed. *9eePl. Memo at
12-16; Dkt. No. 380 (L Memo) at 7-10; Dkt. No. 372
(BPCA Memo) at 3-7. The Landlord Defendants
further argue that, even if there were evidence of a
conspiracy, they would be entitled to summary
judgment because Plaintiffs failure to pay rent on
time and his harassment of building tenants and staff
caused the Landlord Defendants not to renew
Plaintiffs lease. L Memo at 10-18.
Assuming arguendo that sufficient evidence
exists to support a conclusion that the BPCA
Defendants and the Landlord Defendants conspired to
retaliate against Plaintiff, Defendants are entitled to
summary judgment on Plaintiffs First Amendment
retaliation claim because there is no genuine issue of

20a
material fact that could lead a reasonable juror to
conclude that Defendants retaliated against Plaintiff.
To succeed on a First Amendment retaliation
claim, a plaintiff must prove that "(l) he has an
interest protected by the First Amendment; (2)
defendants' actions were motivated or substantially
caused by the exercise of that right; and (3)
defendants' actions caused" the plaintiff some injury.
Curley v. Village of Suffern, 268 F.3d 65, 73 (2d Cir.
2001); see also BeechwoodRestorative Care Center v.
Leeds, 436 F.3d 147, 152 (2d Cir. 2006) ("To survive
summary judgment on a section 1983 First
Amendment retaliation claim a plaintiff must
demonstrate that he engaged in protected speech, and
that the speech was a substantial or motivating factor
in an adverse decision taken by the defendant."). "A
causal relationship [between the protected activity
and the adverse action] can be demonstrated either
indirectly by means of circumstantial evidence,
including that the protected speech was followed by
adverse treatment, or by direct evidence of animus."
Wrobel v. County of Erie, 692 F.3d 22, 32 (2d Cir.
2012); see also Gorman-Bakos v. Cornell Co-op
Extension of Schenectady County, 252 F.3d 545, 554
(2d Cir. 2001) (explaining that a causal connection
may be established by showing that the adverse action
closely followed the protected activity). In the context
of speech-based retaliation, the defendant may prevail
"by demonstrating by a preponderance of the evidence
that it would have taken the same adverse action in
the absence of the protected speech." Mandell v.
County of Suffolk, 316 F.3d 368, 382 (2d Cir. 2003);
see also Mt. Healthy Sch. Dist. Bd. of Educ. v. Doyle,
429 U.S. 274, 286-87 (1977) (same).
Here, the heart of the retaliation issue is
whether the non-renewal of Plaintiffs lease was

21a

motivated by Plaintiffs exercise of his First
Amendment right. Because the record could not lead
a reasonable juror to conclude that it was, Defendants
are entitled to summary judgment on this claim.
Plaintiffs evidence of retaliation rests on little
more than speculation. Although Serpico was aware
of and disapproved of Plaintiffs blog, see Ford Depo.
at 9: 15*11 '1, and may have been involved in the
decision not to renew Plaintiffs lease, see, e.g.,
Swanson Depo. at 19:9*21, 24:7*20, there is no
evidence in the record that Serpico wanted to harm
Plaintiff because of Plaintiffs blog. Indeed, Plaintiff
had been operating his blog for several years before
the nonrenewal of his lease, BPCA 56.1 Tj 9! PI.
Counter to BPCA 56.1]f9; PL 56.1^2, and at all times
during that period Serpico was the Chief Financial
Officer of the BPCA, Serpico Decl. f 1.
By contrast, the record contains extensive
evidence to support a conclusion that Defendants
would not have renewed Plaintiffs lease even in the
absence of Plaintiffs blog. Most significantly, the
undisputed record demonstrates that Plaintiff did not
consistently pay rent on time. Copies of rent checks
from Plaintiff show that he paid rent late on several
occasions throughout 2012 and 2013. See Greer Ex. T
("Greer Checks") (check dated January 1, 2013, for
December rent; check dated February 19, 2013, for
January rent; check dated March 1, 2013 for February
and March rent; check dated March 31, 2013 for
March rent-presumably for the amount remaining
after the March 1, 2013 check; check dated December
25, 2013, for December rent); Dkt. No. 381, Ex. 17
(check dated August 31, 2012, for August and
September rent; check dated December 1, 2012, for
November rent); see also Dkt. No. 184, Ex. A (filings
in housing court listing payments owed by Plaintiff).

22a

In addition, emails between the Landlord Defendants
and Plaintiff from 2012 and 2013 reveal discussions in
which Plaintiff acknowledges that he owes money to
the Landlord Defendants. See 7130112 Email RossiGreer (Plaintiff explaining to Rossi that he is "getting
some banking matters corrected" and will bring a
check shortly for money that was outstanding" from
July); 8/7 /13 Email from Greer (Plaintiff stating, "I
screwed up. I recently closed an account but failed to
throw away that checkbook .... I mistakenly gave you
a check from the wrong closed out account."); see also
712112 Email from Greer (Plaintiff stating that rent
for June 2012 and July 2012 would be arriving soon);
9/27/12 Greer-Hill Emails (showing that Plaintiff
owed unpaid storage fees); 12/6/12 Email from Greer
("I see that I owe as of today $4,142 for apartment
rent, including December, and $214 for storage. I did
miss a few months (but not 6!).") (emphasis added));
5/16/13 Email from Greer (Plaintiff stating that he
would drop off the May rent if he receives his
countersigned lease); 7 /3/12 Greer-Rossi Emails
(Rossi explaining that a late fee would be charged for
the June rent). Although in one email from April 2013,
Plaintiff claims that he paid rent every month for 11
years, see 4/25/13 email from Greer, the evidence
outlined above shows that he did not pay that rent on
time. And even in that April 2013 email Plaintiff
admits that he owes a balance in excess of $3000.
4/25/13 Email from Greer.
Besides the contemporaneous admissions by
Plaintiff of his late payments, Plaintiff has also made
statements recognizing that the evidence produced in
this litigation demonstrates that he failed to
consistently pay his rent on time. For example,
Plaintiff cites to rent checks for the years 2012 and
2013 and states that they prove "he paid on the first

23a

of the month and was never more than 30-days late."
PI. 56.1 ]f 31 (emphasis added). Plaintiff also
recognizes that there were "[o]ngoing disagreements
over the actual balances owed." PI. 56.1 Tf 31. In
addition, Plaintiff acknowledges that a spreadsheet
submitted by the BPCA Defendants, Dkt. No. 373, Ex.
253, shows that Plaintiff had "running balances equal
to two-months or more of rent," PI. Counter to BPCA
56.1 If 81. However, Plaintiff argues that the balance
appears because Milford was late in processing his
payments. PI. Counter to BPCA 56.1 If 81.
Nevertheless, although there are emails indicating
that the Landlord Defendants sometimes reduced the
amounts that Plaintiff owed in response to his
protestations, see Dkt. No. 370, Ex. W, there is no
evidence that the Landlord Defendants' accounting
system was inaccurate-or at least that its inaccuracy
accounts for every late payment by Plaintiff.
In his final counter-argument to the
overwhelming evidence of his non-payment of rent,
Plaintiff asks why, if he was "truly failing to pay rent
for two-months at a time" the Landlord Defendants
renewed his lease in 2012 and 2013. See PI. Counter
to BPCA 56.1 If 81. Although the record provides no
clear answer why Plaintiffs lease was not renewed in
2014 as opposed to any other year, there is no evidence
that Plaintiffs blog motivated the non-renewal.
Furthermore, there is evidence that the
Landlord Defendants took legal action against other
tenants who owed amounts comparable to that owed
by Plaintiff. Rossi Decl. Tff 42-50. Plaintiff adamantly
3 Plaintiff refers to Docket Number 373, Exhibit 17 in his Counter
Statement to the BPCA Defendants' 56.1 Statement, but it
appears from the context of Plaintiffs Counter Statement and the
56.1 Statement that he is countering that Plaintiff likely
intended to reference Exhibit 25.

24a

disputes that conclusion and insists that there is no
evidence the other tenants were taken to court or
evicted. See Dkt. No. 397 (PI. Counter to Landlord
56.1) 53. Plaintiff is correct that Defendants have
not provided eviction notices or court filings for other
tenants. But the "Legal Action Update Report" shows
when legal action was taken against a particular
tenant, and the Reports in the record show that action
was often taken when tenants owed two months' rent.
*SeeDkt. No. 381, Exs. 34-43.
Finally, Defendants argue that incidents of
harassment by Plaintiff also contributed to the
decision not to renew Plaintiffs lease and to his
ultimate eviction. However, several of the incidents
that Defendants highlight occurred after the non­
renewal of Plaintiffs lease on January 24, 2014. The
Court declines to consider those incidents because
they could not have motivated the non-renewal of
Plaintiffs lease. Nevertheless, there is evidence that
the BPCA Defendants were aware of at least one
instance of Plaintiffs antagonistic behavior before
January 2014. See March 11, 2013 Email (describing
an incident in which Plaintiff yelled at a woman and
tried to videotape her, prompting the woman to call
the police).
Despite Plaintiffs arguments to the contrary,
there is no evidence beyond mere speculation that
Plaintiffs blog motivated Defendants not to renew
Plaintiffs lease. Speculation alone is insufficient to
support Plaintiffs claims at this stage. See Harlen
Assocs. v. Inc. Village of Mineola, 273 F ,3d 494, 499
(2d Cir. 2001). Instead, the evidence, taken in the light
most favorable to Plaintiff, only supports a conclusion
that Defendants "would have taken the same adverse
action in the absence of the protected speech."
Mandell, 316 F.3d at 382. No reasonable jury could

25a
conclude otherwise. Indeed, there is extensive
evidence of Plaintiffs frequent untimely rent
payments and Defendants' taking legal action against
other tenants in similar circumstances. Because the
undisputed evidence does not support a reasonable
conclusion that the decision not to renew Plaintiffs
lease was motivated or substantially caused by
Plaintiffs exercise of his First Amendment rights, the
Landlord Defendants and the BPCA Defendants are
entitled to summary judgment on Plaintiffs First
Amendment retaliation claim.
C. First Amendment Equal Access Claim
The BPCA also moves for summary judgment on
Plaintiffs equal access claim, as does Plaintiff. See
BPCA Memo at 8-13; PI. Memo at 5-12. Plaintiff
maintains that he "proved" his equal access claim,
while the BPCA responds that it did not violate
Plaintiffs First Amendment rights by excluding him
from the July 29, 2015, board meeting. The BPCA
emphasizes that the decision to exclude Plaintiff was
a response to Plaintiffs prior disruptive and
threatening behavior and that Plaintiff was still
allowed to watch the meeting from a different room.
BPCA Memo at 2, 8-13. The BPCA also argues that it
is entitled to summary judgment because Plaintiffs
exclusion from the July 29, 2015, board meeting was
not the result of an official policy or custom, as
required to impose liability on the BPCA.4 See BPCA
Memo at 13-17.
4 The BPCA further argues that for the same reason, summary
judgment should be entered in favor of Serpico, in his official
capacity, on the equal access claim. See BPCA Memo at 13, 17
n.13. Because the operative complaint, Dkt. No. 85, lists "Robert
Serpico, an individual," as a defendant and does not assert claims
against Serpico in his official capacity, the Court does not
consider that argument.

26a
A municipal entity can be sued under § 1983 if
its "policy or custom, whether made by its lawmakers
or by those whose edicts or acts may fairly be said to
represent official policy, inflicts the injury." Monell v.
Dep 't of Soc. Servs., 436 U.S. 658, 694 (1978). The
same law applies to public benefit corporations. See
Estes-El v. State Dep 't of Motor Vehicles Office of
Admin. Adjudication Traffic Violation Bureau, 95 Civ.
3454, 1997 WL 342481, at *4 (S.D.N.Y. June 23, 1997).
"Where the contention is not that the actions
complained of were taken pursuant to a local policy
that was formally adopted or ratified but rather that
they were taken or caused by an official whose actions
represent official policy, the court must determine
whether that official had final policymaking authority
in the particular area involved." Jeffes v. Barnes, 208
F.3d 49, 57 (2d Cir. 2000). Courts look to state law in
determining whether the official in question possessed
final policymaking authority. Id. The Second Circuit
has "explicitly rejected the view that mere exercise of
discretion [is] sufficient to establish municipal
liability." Anthony v. City ofNew York, 339 F.3d 129,
139 (2d Cir. 2003). "[W]hen a subordinate's decision is
subject to review by the municipality's authorized
policymakers, they have retained the authority to
measure the official's conduct for conformance with
their policies." City ofSt. Louis v. Praprotnik, 485 U.S.
112, 127 (1988) (plurality opinion) (emphasis
omitted). "Where a plaintiff relies ... on the theory that
the conduct of a given official represents official policy,
it is incumbent on the plaintiff to establish that
element as a matter of law. Jeffes, 208 F.3d at 57-58!
see also Roe v. City of Waterbury, 542 F.3d 31, 37 (2d
Cir. 2008) (stating that, when a plaintiff "seeks to hold
a municipality liable for a single decision by a
municipal policymaker, the plaintiff must show that

27a
the official had final policymaking power" (internal
quotations omitted)).
New York law establishes the BPCA as a public
benefit corporation. N.Y. Pub. Auth. Law § 1973(l).
The law provides that the BPCA shall consist of seven
members. N. Y. Pub. Auth. Law§ 1973(l). A majority
of the members of the BPCA "shall constitute a
quorum for the transaction of any business or the
exercise of any power or function of the authority."
N.Y. Pub. Auth. Law § 1973(7). Still, the BPCA "may
delegate to one or more of its members, or to its
officers, agents or employees, such powers and duties
as it may deem proper." N.Y. Pub.
Auth. Law § 1973(7).
There is no evidence that the officials who
decided to deny Plaintiff entry to the July 2015 board
meeting had final policymaking authority. Mehiel,
Chairman and CEO of the BPCA, made the decision
to exclude Plaintiff from the BPCA board meeting
after concluding "that Plaintiff posed a threat to
public safety, the orderly conduct of BPCA board
meetings, and the smooth continued operations of the
BPCA." Mehiel Decl. 13! see also McCabe Depo. At
32:24-33;3 (McCabe stating that Mehiel told security
to exclude Plaintiff from BPCA offices); 619115 Email
from Mehiel (instructing security to ban Plaintiff from
the BPCA office). According to Mehiel, the "BPCA
board could have, if it so chose, reviewed [Mehiel's]
decision." Mehiel Decl.U 16. The record contains no
evidence to contradict that assertion. Although, as
Plaintiff points out, see Dkt. No. 396 (PI. BPCA Opp.)
at 11, New York law allows the BPCA board to
delegate "powers and duties as it may deem proper,"
there is no evidence that the BPCA in fact delegated
to Mehiel the power to exclude individuals from board
meetings. Similarly, that Mehiel was both Chairman

28a
of the Board and CEO, see PI. BPCA Opp. at 11, does
not on its own demonstrate that he had final
policymaking power. Plaintiffs other argument-that
the BPCA failed to train anyone on the New York
Open Meeting Law, document retention, or ethics, see
PI. BPCA Opp. at 11-12-is not relevant to the question
whether Plaintiffs exclusion from the July 2015 board
meeting represented official policy.
Because the undisputed evidence shows that
Mehiel's decision to exclude Plaintiff was "subject to
review" by the BPCA board, Praprotnik, 485 U.S. at
127, the record does not support a conclusion that
Mehiel had "final policymaking authority," Jeffes, 208
F.3d at 57.
III. PLAINTIFF’S REQUEST FOR SANCTIONS
Plaintiff alleges an "egregious pattern of spoliation by
all defendants" and requests sanctions pursuant to
Federal Rule of Civil Procedure 37 or the Court's
inherent powers. PL Memo at 19-22. Specifically,
Plaintiff alleges that (l) Defendants deleted emails,
including an email from Serpico to Rossi that Serpico's
secretary, Linda Soriero, witnessed; (2) the BPCA
engaged in witness tampering by firing that secretary
after she began to assist Plaintiff in this
case! and (3) Serpico's counsel inappropriately
instructed Serpico not to answer certain questions
during his deposition. PI. Memo at 19-20. As a
sanction, Plaintiff seeks entry of summary judgment
or default judgment against Defendants. See PI.
Memo at 21-22.
Federal Rule of Civil Procedure 37 provides
that, ”[i]f electronically stored information that should
have been preserved ... is lost because a party failed to
take reasonable steps to preserve it, and it cannot be

29a

restored or replaced through additional discovery,"
the court may, "upon finding prejudice to another
party from loss of the information, ... order measures
no greater than necessary to cure the prejudice." Fed.
R. Civ. Proc. 37(e)(1). In addition, "upon funding that
the party acted with the intent to deprive another
party of the information's use in the litigation," the
court may "presume that the lost information was
unfavorable to the party [or] ... dismiss the action or
enter a default judgment."5 Fed. R. Civ. Proc. 37(e)(2).
"[D]ismissing a complaint or entering judgment
against a defendant[] are severe sanctions, but they
may be appropriate in 'extreme situations,' as 'when a
court finds willfulness, bad faith, or any fault on the
part of the' noncompliant party." Guggenheim
Capital, LLC v. Birnbaum, 722 F.3d 444, 450-51 (2d
Cir. 2013) (quoting Bobal v. Rensselaer Polytechnic
Inst., 916 F.2d 759, 764 (2d Cir. 1990)).
The Court declines to impose sanctions on
Defendants. As an initial matter, Plaintiffs
contention that the BPCA engaged in witness
tampering is mere speculation and lacks any
evidentiary support. Moreover, sanctions are not
warranted against Serpico or the BPCA as a result of
their attorney's instruction to not answer certain
questions during Serpico's deposition. Counsel stated
on the record his basis for directing Serpico not to
answer those questions. See Greer Ex. H (Serpico
Depo.) at 3B 18-33:22. Finally, although there is
5 Plaintiff argues that sanctions are appropriate pursuant to
Federal Rule of Civil Procedure 37(c). See PI. Memo at 20-21.
Rule 37(c) provides for sanctions if a party "fails to provide
information or identify a witness as required by Rule 26(a) or (e)."
However, the heart of Plaintiffs request is the argument that
Defendants deleted emails, to which Rule 37(e), which
provides for sanctions if a party fails to preserve electronically
stored information, is more applicable.

30a

evidence that some of the Landlord Defendants'
emails were deleted, the BPCA Defendants produced
copies of those emails. Those emails thus can "be
restored or replaced through additional discovery."
Fed. R. Civ. Proc. 37(e). To the extent that Plaintiff
believes that a "smoking gun" email was deleted and
not produced by either group of Defendants, there is
simply no basis to conclude that such an email existed.
The only evidence Plaintiff cites is Soriero's statement
that she saw an email between Serpico and Rossi
discussing Plaintiff. However, assuming arguendo
that the Court should consider Soriero’ s statement,
the record contains no details regarding the alleged
"smoking gun" email. It is thus quite possible that the
May 2014 email between Serpico and Rossi was the
one Soriero was alluding to. In any event, Plaintiff has
not demonstrated "willfulness, bad faith, or any fault"
on the part of Defendants that would justify the
"severe" sanction of the entry of summary or default
judgment. Plaintiffs request for sanctions is denied.
IV. PLAINTIFF'S REQUEST TO REINSTATE
MEHIEL AND SERPICO AS DEFENDANTS
In its September 30, 2016 Order, the Court
explained that Plaintiff had included "no allegations
in the complaint that either [Mehiel or Serpico] had a
role in excluding Greer from the [July 2015 board]
meeting." Dkt. No. 177 at 12. Accordingly, the Court
granted the motion to dismiss the First Amendment
equal access claim against those individuals. See id. ‘
Plaintiff now requests that his First
Amendment equal access claim be reinstated against
Mehiel and Serpico. PI. Memo at 6. Plaintiff appears
to cite to Federal Rule of Civil Procedure 60(b) in
support of his request. See PI. Memo at 6 & n.4.
However, Rule 60(b) is not applicable here because the

31a

Court's decision regarding Defendants' motions to
dismiss is not a final order. See Glendora v. Malone,
165 F.R.D. 42, 43 (S.D.N.Y. 1996) (stating that an
order dismissing certain defendants is not final,
"unless the court makes the findings contemplated by
Fed. R. Civ. P. 54(b) and enters partial final judgment
as to those parties").
Alternatively, if Plaintiffs argument is
construed as a motion for reconsideration of the
Court's September 30, 2016 Order, it is untimely. See
McDowell v. Eli Lilly & Co., No. 13 Civ. 3786, 2015
WL 4240736, at *1 (S.D.N.Y. July 13, 2015) ("Under
Local Civil Rule 6.3, 'a notice of motion for
reconsideration or reargument of a court order
determining a motion shall be served within fourteen
(14) days after the entry of the Court's determination
of the original motion, or in the case of a court order
resulting in a judgment, within fourteen (14) days
after the entry of the judgment.'" (quoting Local Civil
Rule 6.3)).
Finally, to the extent that Plaintiff is seeking to
amend his complaint under Federal Rule of Civil
Procedure 15, that request is denied. As an initial
matter, the Court notes that Plaintiff previously
sought to amend his complaint for a third time to
clarify other claims, and the Court denied that request
because Plaintiff had chosen not to amend his
complaint in response to Defendants' motions to
dismiss. See Dkt. No. 192; see also Dkt. No. 221. In
any event, at this point, Plaintiff has already amended
his complaint twice, discovery has been completed,
and all parties have moved for summary judgment. To
allow Plaintiff to amend his complaint now would
unduly delay this litigation. Although some of the
discovery regarding Serpico's and Mehiel's alleged
involvement in Plaintiffs exclusion from the board

32a

meeting undoubtedly would overlap with some of the
discovery that has already occurred, additional
discovery, at least as to Serpico's role, would likely be
needed. Indeed, there is no evidence in the record that
Serpico was involved in the decision to exclude
Plaintiff from the meeting, thus suggesting that
amendment as to the claim against Serpico would be
futile. See McCarthy v. Dun & Bradstreet Corp., 482
F.3d 184, 200 (2d Cir. 2007) ("A district court has
discretion to deny leave [to amend] for good reason,
including futility, bad faith, undue delay, or undue
prejudice to the opposing party."). Moreover, Mehiel
has raised the defense of qualified immunity, Dkt. No.
400 (BPCA Opp. to P) at 19-21, a question that the
parties would likely need an opportunity to brief.
Given the late stage of litigation, the Court denies
Plaintiff leave to amend his complaint.
V. SEALING REQUESTS
The parties also make several sealing requests.
The BPCA Defendants request that Exhibits 1 and 2
to the Declaration of Shari Hyman, Dkt. No. 376, be
filed in redacted form to protect the identities and
personal information of third parties. That request is
granted. Those documents already appear on the
docket in redacted form and shall remain on the
docket in that form. Within three weeks of the date of
this Order, the BPCA Defendants shall file
unredacted versions of those exhibits under seal.
The BPCA Defendants have also requested to
file under seal certain documents and testimony that
Plaintiff has produced and designated as
"Confidential." Specifically, Plaintiff informed the
BPCA Defendants that he wanted to maintain the
following exhibits under seab Exhibits 2, 9, 10, 15, 16,
17, 19, 20, 21, 22, 23, and 24 to the Declaration of

33a

Michael Tremonte, Dkt. No. 373. There does not
appear to be any valid reason to file those documents
under seal. As the BPCA Defendants point out,
Exhibits 15 and 16 have already been filed publicly in
this case. Accordingly, the BPCA Defendants are
instructed to file the exhibits at issue on the public
docket within three weeks of the date of this Order.
Furthermore, on July 20, 2017, Plaintiff
informed the Court that Docket Numbers 381-1, 3813, 381-5-filed by the Landlord Defendants-revealed
Plaintiffs bank account information. Dkt. No. 407. The
Court ordered that the exhibits be temporarily sealed.
Dkt. No. 408. On July 24, 2017, the BPCA Defendants
informed the Court that Docket Number 381-5, filed
by the Landlord Defendants and which the Court had
temporarily sealed, was the same as Docket Number
373-5, filed by the BPCA Defendants. Dkt. No. 409.
Accordingly, the Court temporarily sealed Docket
Number 373-5. Dkt. No. 411.
The Landlord Defendants have
since
acknowledged that redactions to Docket Numbers
381-1 and 381-3 are necessary to protect Plaintiffs
bank account information. Accordingly, the Landlord
Defendants' request to file redacted versions of 381-1
and 381-3 on the public docket is granted. Within
three weeks of the date of this Order, the Landlord
Defendants shall file redacted versions of those
exhibits on the public docket. The unredacted versions
of 381-1 and 381-3 shall be filed and remain under
seal. Document 381-5 does not, however, include any
bank account information. Accordingly, the temporary
seal on Docket Numbers 381-5 and 373-5 is lifted.
Within three weeks of the date of this Order, the
Landlord Defendants shall file unredacted versions of
381-5 and 373-5 on the public docket. In his July 20,
2017 letter, Plaintiff also stated that 381-4, 381-9,

34a

381-17, 381-19, 381-25, 381-26, 381-27, 381-29, 38130, and 404-6 were classified as "Confidential" and
should not have been filed on the public docket. Dkt.
No. 407. The Court ordered that the exhibits be
temporarily sealed. Dkt. No. 408. Similarly, at
Plaintiffs request, the Landlord Defendants
requested to file under seal the following exhibits:
Exhibits 5, 6, 7, 9, 10, 11, 12, 13, 14, 15, 17, 20, 58, 62,
64, 65, 66, and 67 to the Declarations of Stephen Rossi
and Deborah Riegel, Dkt. Nos. 381 & 383. The
Landlord Defendants also requested to seal certain
documents that quote from the "Confidential"
documents, specifically: the memorandum of law in
support of their motion for summary judgment, Dkt.
No. 380; the 56.1 statement of material facts, Dkt. No.
382; Stephen Rossi's declaration, Dkt. No. 381; and
Deborah Riegel's declaration, Dkt. Nos. 383. Since
making that sealing application essentially on
Plaintiffs behalf, the Landlord Defendants have
acknowledged that some redactions to those exhibits
are necessary to protect Plaintiffs bank account
number. There does not appear to be any other basis
to redact or file under seal the documents identified
by Plaintiff. Accordingly, within three weeks of the
date of this Order, the Landlord Defendants shall file
all exhibits and documents that were the subject of the
sealing application on the public docket, with only
Plaintiffs bank account information redacted as
necessary. Finally, Plaintiff has requested that
several of his own exhibits be filed under seal. As to
the exhibits to his memorandum of law in support of
his motion for summary judgment, Dkt. No. 367,
Plaintiff complains that Exhibits B, D, J, T, U, W, X,
zD, and zE "would be embarrassing and harmful to
[his] reputation." Although some of the exhibits may
harm Plaintiffs reputation by demonstrating that he

35a

failed to pay rent in a timely manner or was thought
to be a security threat, those issues are at the core of
this case. Accordingly, Plaintiffs request to seal those
documents because they may damage his reputation
are denied. However, Exhibits T, U, and W appear to
contain banking information for Plaintiff. Those
exhibits should thus be filed in redacted form, with the
banking information removed. Within three weeks of
the date of this Order, Defendants6 shall file on the
public docket Exhibits B, D, J, X, and zE and a
redacted version of Exhibits T, U, and W. In addition,
the Court is in receipt of only a redacted version of
Exhibit zD. To fully evaluate whether the redactions
are necessary, Plaintiff shall submit via email a clean,
unredacted version of Exhibit zD to the Court within
three weeks of the date of this Order. For other
exhibits to his motion for summary judgment
(Exhibits A, F-M, OV, Y), Plaintiff makes no
argument why they should be sealed and states that
if the Court decides that the exhibits are "not worthy
of being sealed," he "will not contest that decision."
Similarly, Plaintiff requests that Exhibits 1-11, 13-16,
and 19 to his declaration in opposition to the Landlord
Defendants' motion for summary judgment, Dkt. No.
399, be filed under seal, but he does not make specific
arguments why they should be sealed and again states
that he will not contest the Court's decision that the
exhibits are "not worthy of being sealed." Plaintiff
takes the same approach regarding Exhibits 3-7, 9,
10-12, 13, 17-19, 21, and 22 to Plaintiffs declaration
in opposition to the BPCA Defendants' motion for
summary judgment, Dkt. No. 395. Neither the
Landlord Defendants nor the BPCA Defendants
contend that those exhibits should be filed under seal.
6 Because Plaintiff is pro se, the Court requests that Defendants
file the documents at issue on the docket.

36a

Accordingly, the Court rejects the request to file under
seal Exhibits A, F-M, OV, and Y to Plaintiffs motion
for summary judgment; Exhibits 1-11, 13-16, and 19
to Plaintiffs declaration in opposition to the Landlord
Defendants' motion for summary judgment; and
Exhibits 3-7, 9, 10-12, 13, 17-19, 21, and 22 to
Plaintiffs declaration in opposition to the BPCA
Defendants' motion for summary judgment. Within
three weeks of the date of this Order, Defendants shall
file those exhibits on the public docket.
VI. CONCLUSION
Defendants' motions for summary judgment
are granted, while Plaintiffs motion for summary
judgment is denied. This resolves Docket Numbers
366, 371, and 379. Within three weeks of the date of
this Order, Defendants shall file on the public docket
the documents discussed above. Similarly, within
three weeks of the date of this Order, Plaintiff shall
submit to the Court a clean, unredacted copy of
Exhibit zD to Plaintiffs motion for summary
judgment. In addition, within three weeks of the date
of this Order, the parties shall submit a status update
regarding the remaining counterclaim for attorneys'
fees and a proposed schedule for resolution
of that claim. *SteeDkt. Nos. 235, 425.
SO ORDERED
Dated: March 28, 2019
New York, New York
/s/ Alison J. Nathan District Judge

37a

Appendix-C: Rule 60 Motion Opinion
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
Steven E. Greer,

15-cv-6119 (AJN)

Plaintiff,
—v—

MEMORANDUM
OPINION & ORDER

Dennis Mehiel, et al.,
Defendants,

ALISON J. NATHAN, District Judge:
Pro se Plaintiff Steven E. Greer moves
pursuant to Federal Rule of Civil Procedure 60(b)
for reconsideration of the Court’s March 28, 2018
Memorandum Opinion & Order granting summary
judgment in favor of Defendants. Dkt. No. 466. For the
reasons set forth below, Plaintiffs motion for relief
under rule 60(b) is denied.
I. BACKGROUND
Pro se Plaintiff Steven E. Greer brought this
suit against the company that owns his former
apartment, the company that manages that
apartment building, the Battery Park City Authority

38a

("BPCA"), and several individuals associated with
those entities. The facts are described in the Court's
March 28, 2018 Memorandum Opinion & Order. Dkt.
No. 433. Briefly, in 2009, Plaintiff created a blog called
BatteryPark.TV, where he published articles about
the BCPA's activities. On January 24, 2014,
Defendant Milford Management informed Plaintiff
that his lease would not be renewed. When Plaintiff
did not vacate his apartment as requested, Defendant
Mariners Cove began an eviction proceeding against
him, which was ultimately successful in the spring of
2016. In June 2015, while the eviction proceedings
were ongoing, Plaintiff was asked to leave a BPCA
board meeting when the board planned to transition
to an executive session. Plaintiff refused until a BPCA
employee threatened to call the police. Following that
incident, BPCA Chairman Dennis Mehiel decided to
exclude Plaintiff from the BPCA offices, including
future board meetings. Shortly thereafter, Plaintiff
filed his complaint in this action.
At issue in the Court's March 28, 2018 Order
were two remaining claims that survived the motion
to dismiss phase-a First Amendment retaliation claim
and a First Amendment equal access claim against
BPCA only. With respect to the retaliation claim,
Plaintiff alleged that the non-renewal of his lease,
which led to his ultimate eviction, was an action taken
in retaliation for articles posted on his blog. Based on
the evidence in the record, though, the Court assessed
that "Plaintiffs evidence of retaliation rest[ed] on little
more than speculation," whereas there was "extensive
evidence to support a conclusion that Defendants
would not have renewed Plaintiffs lease even in the
absence of Plaintiffs blog." Dkt. No. 433 at 8-9. As for
the equal access claim, Plaintiff alleged that he was
unlawfully excluded from a July 2015 meeting of the

39a

BPCA board. As a matter of law, to succeed on this
claim against a municipal entity like BPCA, Plaintiff
needed to demonstrate that Mehiel 's actions
represented official policy-in other words, that Mehiel
exercised final decision-making authority. Reviewing
the record, however, the Court concluded that
"undisputed evidence" showed that Mehiel's decision
to exclude Plaintiff from the meeting was subject to
review by the BPCA board. Dkt. No. 433 at 15. The
Curt accordingly granted summary judgment in favor
of Defendants on both claims.
On July 5, 2018, Plaintiff filed the instant
motion. Dkt. No. 466. Plaintiff moves pursuant to
FRCP 60(b)(1), FRCP 60(b)(3), and FRCP 60(b)(6) for
relief from the Court's grant of summary judgment in
favor of Defendants. See id. The BCP A Defendants7
filed their opposition on July 16, 2018. Dkt. No. 472.
Plaintiff filed a reply on July 18, 2018.
II. DISCUSSION
Rule 60(b) of the Federal Rules of Civil
Procedure provides that a court may, in its discretion,
relieve a party from a final judgment or order on the
following grounds:
(l) mistake, inadvertence, surprise, or
excusable neglect; (2) newly discovered
evidence
that,
with
reasonable
diligence, could not have been
discovered in time to move for a new
trial under Rule 59(b ); (3) fraud
(whether previously called intrinsic or
7 The Landlord Defendants requested an extension of time to
oppose the motion and ultimately reached a settlement
agreement with Plaintiff that terminated their involvement in
this litigation. ^SeeDkt. Nos. 469, 482-83.

40a
misrepresentation,
or
extrinsic),
misconduct by an opposing party; ( 4)
the judgment is void; (5) the judgment
has been satisfied, released, or
discharged! it is based, on an earlier
judgment that has been reversed or
vacated; or applying it prospectively is
no longer equitable; or ( 6) any other
reason that justifies relief.
Fed. R. Civ. P. 60(b). The burden of proof is on
the party seeking relief from judgment, and the
Second Circuit has repeatedly recognized that such
relief is "extraordinary, exceptional and generally not
favored." Ognibene v. Parkes, No. 08-01335 (LTM),
2015 WL 12991206, at *2 (S.D.N.Y. June 19, 2015)
(describing Second Circuit precedent). Rule 60(b) is
not intended to "provide [the] movant an additional
opportunity to make arguments or attempt to win a
point already carefully analyzed and justifiably
disposed." In re Bulk Oil (USA) Inc., No. 89-B-13380,
No. 93-cv-4492, 93-cv4494 (PKL), 2007 WL1 121739,
at* 10 (S.D.N.Y. Apr. 11, 2007) (internal quotation
marks omitted). If none of the grounds enumerated in
Rules 60(b )(l) through ( 5) are present, relief under
Rule 60(b )( 6) is only proper if "the failure to grant
relief would work an extreme hardship on the
movant." ISC Holding AG v. Nobel Biocare Fin. AG,
688 F.3d 98, 109 (2d Cir. 2012).
Plaintiffs primary argument in favor of Rule
60(b) relief is that the Supreme Court's June 18, 2018
opinion in Lozman v. City ofRiviera Beach, Fla., 13 8
S. Ct. 1945 (2018), created new law that governs this
case. According to Plaintiff, Lozman "establishes that
the 'official policy' question is unnecessary to decide
when the 'probable cause' defense is used ... and that

41a
a jury should have decided the 'official policy'
question." Dkt. No. 467 at 1. But Plaintiff misreads
the opinion in Lozman, which decided only the limited
question of whether the presence of probable cause for
an arrest precludes a retaliatory arrest claim. See
Lozman, 138 S. Ct. at 1949. It is therefore inapplicable
to Plaintiffs case.
Indeed, the portions of the opinion cited by
Plaintiff do not support his argument for relief.
Plaintiff points to the Supreme Court's statement that
it assumes -rather than requires proof, as did this
Court -that "the arrest was taken pursuant to an
official city policy." Dkt. No. 467 at 3 (quoting Lozman,
13 8 S. Ct. at 1951). But this sentence illustrates that
the Supreme Court did not reach the issue of whether
there was an official policy. In fact, the Court
expressly affirmed elsewhere that such a showing
would nevertheless be required on remand. See
Lozman, 13 8 S. Ct. at 1951 ("It is well established
that in a § 1983 case a city or other local governmental
entity cannot be subject to liability at all unless the
harm was caused in the implementation of "official
municipal policy.") (citation omitted). Second, Plaintiff
analogizes probable cause for an arrest to Mehiel's
public safety justification for excluding him from
meetings, concluding that under Lozman, this
justification does not defeat a First Amendment claim.
SfeeDkt. No. 467 at 4. Plaintiffs equal access claim did
not survive summary judgment because there was
undisputed evidence that his exclusion from meetings
was subject to review and therefore not an official
policy, however, not because the BPCA had a
justification for its decision. Dkt. No. 433 at 14-15.
Third, Plaintiff highlights language from the opinion
affirming that the right to petition is "one of the most
precious of the liberties safeguarded by the Bill of

42a

Rights." Dkt. No. 467 at 5 (quoting Lozman, 138 S. Ct.
at 1954). This statement is not "new law," nor does the
importance of the constitutional right alter the legal
standard for a decision on summary judgment.
Though Lozman may have certain factual similarities
with Plaintiffs case, the precedent on which the Court
ruled against Plaintiff on his retaliation and equal
access claims are unaltered by the opinion. As a
result, there is no "new law" to justify relief under
Rule 60(b)(6).
With respect to his other arguments, Plaintiff
does not point to any facts or law that the Court
overlooked that would alter the conclusions reached in
the Court's March 28, 2018 Memorandum Opinion
and Order.8 Instead, Plaintiff relitigates the
underlying factual disputes already briefed and
considered by the Court during motion practice in this
case. First, Plaintiff argues that the Court's
conclusion that Plaintiffs evidence of retaliation was
simply speculative is "contradictory to the evidence
and to the previous Court's opinion," which found that
Plaintiff had sufficiently alleged retaliation in his
complaint. Dkt. No. 467 at 6. Second, Plaintiff
contends that the Court ignored his rebuttal
arguments on the issue of rent payments, id. at 7, but
the Court did consider and address these arguments,
though it was ultimately unpersuaded, Dkt. No. 433
at 9-10. Third, Plaintiff accuses the Court of
considering evidence of an alleged altercation
8 Plaintiffs Rule 60(b)(3) argument rests on allegations of fraud
in the billing statements submitted by counsel for the Landlord
Defendants. Dkt. No. 467 at JO. Because the alleged
misrepresentations concern a motion for attorneys' fees that was
never decided and was ultimately resolved by Plaintiffs
settlement agreement with the Landlord Defendants, no relief
would be available even if the Court did credit Plaintiffs
allegations.

43a

involving Plaintiff in its analysis of the retaliation
claim, when that evidence was submitted by the
BPCA Defendants as relevant to the equal access
claim. Id. at 9. Plaintiff does not, however, raise any
new arguments to undermine the credibility of that
evidence.
A Rule 60(b) motion is not a substitute for
appeal. See Nemaizer v. Baker, 793 F.2d 58, 61 (2d
Cir. 1986). Plaintiff has made no argument that
warrants disturbing the summary judgment order in
this case.
III. CONCLUSION
The Court denies Plaintiffs Rule 60 motion. The
Clerk of the Court is respectfully directed to close this
case.
SO ORDERED
Dated: January 31, 2019
New York, New York
Isl Alison J. Nathan

